Le
\

C@OQCKLE

2311 Douglas Street E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B uate contact@cocklelegalbriefs.com
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 20-559

JANE DOE,
Petitioner,
v.
UNITED STATES,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
PROTECT OUR DEFENDERS, AMERICAN ASSOCIATION OF UNIVERSITY WOMEN,
BATTERED WOMEN’S JUSTICE PROJECT, CALIFORNIA WOMEN’S LAW CENTER, THE
CENTER FOR LAW AND MILITARY POLICY, END RAPE ON CAMPUS, EQUAL RIGHTS
ADVOCATES, GEORGIA MILITARY WOMEN, HER JUSTICE, HUMAN RIGHTS WATCH,
LEGAL MOMENTUM, THE MILITARY WOMEN’S COALITION, MINORITY VETERANS
OF AMERICA, MODERN MILITARY ASSOCIATION OF AMERICA, NATIONAL ALLIANCE
TO END SEXUAL VIOLENCE, NATIONAL CRIME VICTIM LAW INSTITUTE, NOT IN MY
MARINE CORPS, RED FEATHER RANCH, SERVICE WOMEN’S ACTION NETWORK,
AND THE WOMEN’S LAW PROJECT IN SUPPORT OF PETITIONER in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 5995 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 30th day of November, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
Aen cts, | RENEE J. GOSS onsmetan| Aerse. 0. lao’ Qudrau- 4B. Ghh

 

My Comm. Exp. September 5, 2
Notary Public Affiant
